                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL


                                                                                                           I
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 1-10070030                                                                        Page 10fl



                 We received a complaint from a NSF Program Officer claiming that a proposal was
         submitted to NSF by a Principal Investigator (PI)l and two Co-PIs2 that was substantially similar
         to a proposal that had been previously submitted to another agency. After reviewing the
         proposal, NSF declined to fund the proposal and referred the matter to OIG.

                 In response to the allegations, the three subjects stated that there were similarities in the
         proposals but there were significant differences. Our revlew found that over half of the written
         text in NSF proposal was the same as the proposal to the other agency and that a majoritY ofthe
         figures appeared in both proposals. This matter was complicated by the fact that the Current and
         Pending Support sections submitted by the PIs were inconsistent regarding the same proposal
         previously submitted to the other agency.

               We reminded the subject that all current and pending grant proposals must be listed in
         NSF proposals and that information listed in proposals should be clear and accurate.

                   This case is closed with no further action taken.




         2




NSF OIG Form 2 (ll/02)
